Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE TESTS OF LOWER
      EXTREMITY ARTERIES




                 MAY 1993
                       OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Philadelphia Regional Office, under the direction of Joy Quill,
Regional Inspector General and Robert A. Vito, Deputy Regional Inspector General.

Participating in this project were:                                                 .*

Robert Katz, Project Leader                          Penny Thompson, Headquarters
Eileen Silk, Lead Analyst                            Wayne Powell, Headquarters
Cynthia Hansford, Administrative Staff               W. Mark Krushat, SC.D., Headquarters
                                                     Linda Moscoe, Headquarters


To obtain a copy of this repo~ call the PhiladelphiaRegional Office at (215) 596-0607.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE TESTS OF LOWER
      EXTREMITY ARTERIES




           MAY 1993   0EI-03-91-O0950
                 EXECUTIVE                              SUMMARY
PURPOSE

To review Medicare      carriers’ utilization   review practices   for noninvasive   tests of lower
extremity   arteries.

BACKGROUND

Peripheral vascular disease (PVD) is the general term applied to a group of distinct
diseases and syndromes involving the arteries, veins, connective tissues, and vessels of
the extremities.   Although vascular diseases may occur in any body part containing
blood vessels, many victims of PVD experience symptoms in their legs, such as pain,
cramps, numbness, coldness, and weakness.      Physicians use a wide array of noninvasive
techniques to diagnose the presence, location, and extent of conditions, such as
atherosclerosis  (narrowing of the arteries), which interfere with the flow of blood to or
from the extremities.

Diagnostic arterial tests of the lower limbs have increased dramatically in recent years.
Medicare Part B allowed amounts virtually doubled for these tests in all settings and
specialties from 1987 to 1990. In 1991, total allowed dollars exceeded $71 million. In
terms of total Part B billings, the leading specialties include general surgeons, thoracic
surgeons, and internal medicine specialists. These 3 groups accounted for more than
410,000 services totaling some $34 million in allowances.

The Health Care Financing Administration (HCFA) recognizes limb arterial studies
(as well as other related noninvasive vascular tests) as “services where abuses have
been identified, and medical review should be undertaken.” Such services are included
as an alert to carriers in the Medicare Carriers Manual. The alert enables carriers to
facilitate the identification of aberrant practice patterns.

In order to determine how Medicare reviews claims for these tests, we contacted 36
carriers representing 58 geographical jurisdictions to obtain their coverage guidelines
and pertinent policies. Responses were received from 34 carriers serving 56
jurisdictions. We analyzed the criteria and methods carriers use to evaluate and
control utilization. We obtained statistical information from HCFA.

This is one in a series of Office of Inspector General reports on carriers’ utilization
review efforts in areas that appear on HCFAS Postpayment Alert List (PAL) of
abusive services.




                                                    i
FINDINGS

b     Over half the carriers have special utilization policies.

      Over half     of the carriers responding to our inquiries had some type of
      utilization   review safeguard in place. These safeguards consisted of prepayment
      thresholds     or special policies related to coverage, documentation, and/or
      equipment      requirements.

b     Coverage policies could produce savings to the Medicare program.

      Medicare could realize savings nationally by adopting policies such as
      prepayment threshold policies. Based on the experience of four carriers which
      have threshold limits of two tests a year per physician per beneficiary, Medicare
      would save about $5.7 million annually.

RECOMMENDATION

We believe the monetary benefits of tighter uti ization policies, such as prepayment
thresholds, are evident. ‘The HCFA has convened a workgroup to review coverage
policies for these tests. They plan to issue new coverage guidelines. We recommend
that HCFA continue to work with carriers to ensure that there are sufficient
safeguards to prevent the unnecessary utilization of lower extremity tests. These
safeguards may include the policies that are currently utilized by some carriers.

COMMENTS AND OIG RESPONSE

The HCFA concurred with our recommendation.        In HCFAS view, a variety of
approaches might be appropriate to curtail unnecessary utilization in addition to
prepayment thresholds. We agree that various approaches could result in savings.
Our recommendation contains sufficient flexibility to embrace workable monitoring
techniques at any phase of utilization review. We hope the examples of carrier
practices which we have described in this report will be helpful to the Noninvasive
Vascular Testing Work Group, which has been convened by HCFA to address such
issues.

We have refined our savings estimate based on more recent data, and made minor
changes in the report based on HCFA’S technical comments. The full text of HCFA
comments are contained in Appendix B.

The Assistant Secretary for Planning and Evaluation reviewed the report and
expressed concurrence.




                                             ii
                    TABLE                    OF CONTENTS


EXECUTIVE SUMMARY



Introduction           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1



FINDINGS


    Carrier Utilization Policies           ......................................                                           4



    Coverage Policies Could Produce Savings . . . . . . . . . . . . . . . . . . . . . . . . . . ...6



RECOMMENDATION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..7



COMMENTS AND OIGRESPONSE.                              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8



APPENDICES


    Carriers’ Other Special Utilization Policies . . . . . . . . . . . . . . . . . . . . . . . . . . A-1



    Comments Received            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1



    Potential Savings Calculations.            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1

                          INTRODUCTION

PURPOSE

To review Medicare carriers’ utilization review practices for noninvasive tests of lower
extremity arteries.

BACKGROUND

Physicians use a wide array of noninvasive techniques to diagnose the presence,
location, and extent of conditions, such as atherosclerosis (narrowing of the arteries),
which interfere with the flow of blood to or from the extremities. These techniques
include Doppler and plethysmography tests.

�      Doppler tests: Using ultrasound principles, Doppler devices emit high
       frequency soundwaves which detect the flow of blood or pinpoint an arterial
       irregularity, such as an obstruction.

�      Plethysmography: Literally meaning “to record an increase,” this technique
       detects vascular obstructions by temporarily blocking blood flow circulation and
       recording and measuring any changes which result.

Medicare Coverage and Guidance

The HCFA recognizes limb arterial studies (as well as other related noninvasive
vascular tests) as “services where abuses have been identified, and medical review
should be undertaken.” Such services are included as an alert to carriers in a special
Postpayment Alert List (PAL) in Section 7514 of the Medicare Carriers Manual.
Carriers use the PAL to facilitate identification of aberrant practice patterns.
Practitioner services included in the PAL are not limited by physician specialty.

Based on a special review by a medical directors’ workgroup, HCFA issued these
instructions in 1989:

       “The rapid proliferation of noninvasive vascular testing modalities
       presents a challenge to third party payers in determining appropriate
       reimbursement policies. While the patient clearly benefits from escaping
       the risks inherent in angio/venography (an invasive test), the very safety
       of the noninvasive tests may encourage overutilization. Carrier medical
       review policies must therefore be clear and well developed regarding
       these tests.”




                                              1
Carriers can utilize a number of medical review policies, including prepayment
thresholds. Prepayment thresholds (or screens) identifj claims that merit additional
review prior to payment. Carriers frequently review the billing histories for providers
and beneficiaries identified through these screens. Sometimes carriers request
additional medical information before these claims are approved for payment.

Medicare Reirnbmement

Diagnostic arterial tests of the lower extremities (also referred to as arterial or
vascular tests of the lower limbs) have increased dramatically in recent years.
Allowed amounts virtually doubled for all settings and specialties from 1987 to 1990,
according to Part B Medicare Annual Data (BMAD) statistics. In 1991, total dollars
dropped to $71,231,617 even though total allowed services climbed to 801,415,
according to the Part B Extract Summary System (BESS) file compiled through
June 1992.




Section 4108 of the Omnibus Budget Reconciliation Act of 1990, which mandated
reductions in reasonable charges in the technical components of certain high-volume
diagnostic tests, including arterial tests of the lower limbs, may have caused the decline
in total dollars allowed in 1991.

According to BESS statistics for 1991, a wide variety of specialties conduct diagnostic
arterial tests of the lower limbs. Three of the highest specialties (in terms of total
dollars allowed) are general surgeons ($16 million), thoracic surgeons ($9 million), and
internal medicine specialists ($9 million). These groups accounted for more than
410,000 services totaling some $34 million in allowances.

METHODOLOGY

We contacted 36 Medicare carriers representing 58 geographical jurisdictions to obtain
coverage guidelines and pertinent policies. Responses were received from 34 carriers




                                            2

representing 56 jurisdictions. Because the policies of an individual carrier may vary
from jurisdiction tojurisdiction, inthisreport werefer toeach jurisdictional a carrier.

Analysis focused on criteria and methods carriers use to evaluate and control
utilization. We obtained statistical information from HCFA’S BMAD and BESS files,
and obtained technical and clinical information from standard medical references and
the Medicare Carriers Issues Manual (MCIM).

We used the 1991 Part B sample fi]el to calculate national savings which would be
realized if all specialties had a threshold of two tests per year, with additional tests
requiring medical justification.   To estimate the savings resulting if all carriers adopted
a screening threshold of two tests a year (per physician, per beneficiary), we compared
utilization rates in the four carriers with this threshold to utilization rates in the other
carriers.

This inspection was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




    1 The Part B sample is a one percent random sample selection of Medicare
beneficiaries from HCFAS Common Working File. It is maintained by the Office of
Inspector General.


                                              3
                                  FINDINGS
Over half the carriers have special utilization policies.

Many carriers responded to HCFAS warnings about the abusive nature of arterial
limb tests by instituting special policies to control the incidence of inappropriate
testing. More than half of the responding carriers (32 of 56) had some type of
utilization review safeguard in place. These safeguards consisted of prepayment
thresholds or special policies related to coverage, documentation, and/or equipment
requirements.

The 32 carriers accounted for approximately $29.5 million in allowances in 1991 or
about 46 percent of the total allowances for the responding 56 carriers.

Carrier monitoring efforts vary widely. Such efforts include focused techniques as well
as intensive, periodic reviews of arterial limb tests. Some carriers are heavily involved
in prepayment monitoring while others depend solely on postpayment reviews. One
carrier reported that its utilization review section evaluates every vascular test billed by
podiatrists because of medical necessity concerns. Another carrier characterized these
claims as, “Very hard to monitor except manually.” Conversely, another carrier said
they never do any prepayment monitoring.

The HCFA demonstrated its continued concern when it convened a technical advisory
group in June 1992 to reevaluate coverage policies for these tests. They expect to
issue new coverage guidelines in the future.

I?repayment lheshoki’s

Thirteen carriers utilize prepayment thresholds as a primary means of controlling
unnecessary or inappropriate testing. Because of carrier confidentiality concerns, we
will not identify the carriers. A chart depicting the threshold policy for each of the 13
carriers appears on the next page.




                                               4
A
     II   Physicians
          Podiatrists   II       2 @ 365 Days
                                 1 @ 180 Days

B             All                1 @ 6 Months


c             All             1 @ Year Each Leg;
                              2 @ Year if Vascular
                                   Surgery




QJ
                              1 @ Year Each Leg;



E
              “

              All
                              2 @ year if Vascular
                                   Surgery

                               Preoperative/Non-
                                Surgery: 1 @ 12
                                    Months

                             Postoperative: 1 compl
                               Test 1st 12 months;
                               Limited Tests @ 3
                               Months Thereafter

F
     II   Podiatrists
                        II
                               Vascular Tests Not
                                    Covered

G    II       All       II       1 @ 12 months

H             All               1 @ 12 Months



     II
I         Podiatrists          Vascular Tests Not
                        II          Covered

J         Podiatrists          Vascular Tests Not
     II                 II          Covered

K
     II   Podiatrists
                        II
                                 Vascular Tests
                                  Not Covered

L         Podiatrists            1 Preoperative
     II                 II        Test a Year

M             All                1 @ 365 Days;
                                 Postoperative:
                             3 First Year, 1 a Year
                                    Thereafter




               5

Other special policies

Nineteen carriers have instituted special policy guidelines stressing coverage,
documentation, and/or equipment requirements. Several carriers delineate which
symptoms or diagnoses would justify reimbursement for these tests. For example, one
carrier stipulates which symptoms justi& coverage, such as “intermittent claudication”
or “ulcer of lower limbs.” Other carriers stipulate what constitutes acceptable
documentation; for example, one carrier requires physicians to use equipment which
produces “hard-copy output.” (See Appendix A for a list of the 19 jurisdictions and
summaries of their special policies.)

Coverage policies could produce savings.

Medicare could realize savings nationally if carriers used prepayment thresholds as the
basis for their prepayment review safeguards before applying other coverage criteria.

Four carriers have implemented prepayment thresholds of two tests a year per
physician per beneficiary. Based on the experience of the 4 jurisdictions in 1991, we
estimated 64,915 tests would not have been performed if this limit had been in place
nationally. Based on the average cost of about $892 per test, about $5.7 million
would have been saved annually. Potential savings over the next 5 years exceeds $28
million. (See Appendix C for further details of our calculations.)

The unnecessary utilization of lower extremity tests results in unwarranted Medicare
expenditures. According to BMAD statistics for 1990, more than 200,000 beneficiaries
received multiple lower extremity tests. Some beneficiaries received as many as 14
tests from the same physician. To use one of these beneficiaries as an example, a
prepayment threshold of two tests a year per physician could have effected potential
savings of $1272 in allowances just for this one beneficiary if additional tests were
deemed unnecessa~ (12x average 1990 allowance of $106).

Four carriers do not cover vascular tests performed by podiatrists. If all vascular tests
performed by podiatrists were not covered, Medicare could save about $8.8 million
annually or $44 million over the next 5 years. This figure, however, does not take into
account that some beneficiaries currently having tests done by a podiatrist may have
the test done by another physician specialty.




    2Based on a one percent national sample of 1991 services maintained by the Office
of Inspector General.


                                            6
                        RECOMMENDATION
We believe the monetary       benefits of tighter utilization policies, such as prepayment
thresholds,    are evident. The HCFA has convened a workgroup to review coverage
policies for    these tests. They plan to issue new coverage guidelines.      We recommend
that HCFA        continue to work with carriers to ensure that there are sufficient
safeguards     to prevent the unnecessary utilization of lower extremity tests. These
safeguards     may include the policies that are currently utilized by some carriers.




                                                7
                              COMMENTS

Comments and OIG Response

The HCFA concurred with our recommendation.        In HCFA’S view, a variety of
approaches might be appropriate to curtail unnecessary utilization in addition to
prepayment thresholds. We agree that various approaches could result in savings.
Our recommendation contains sufficient flexibility to embrace workable monitoring
techniques at any phase of utilization review. We hope the examples of carrier
practices which we have described in this report will be helpful to the Noninvasive
Vascular Testing Work Group, which has been convened by HCFA to address such
issues.

The HCFA suggested that the technical and/or professional components of tests
involving lower extremity arteries may have been overvalued, thus resulting in
excessive payments. The HCFA felt OIG should examine this issue. We will consider
adding this issue to our workplan.

The Assistant Secretary for Planning and Evaluation reviewed the report and
expressed concurrence.

Technical comments

The HCFA suggested the chart on page 2 indicate whether the figures are based on a
calendar or fiscal year. We revised the chart to reflect that the figures represent
calendar years.

The HCFA questioned our cost projections based on more than 517,000 tests. This
figure should have read 51,797 tests. However, we have revised and refined our
calculations using complete 1991 data recorded through June 1992. The revised
estimate rises to an annual savings of about $5.7 million (64,915 cases with savings
multiplied by an average payment of $89 based on the one percent national sample
maintained by our office). The $89 figure represents the average payment for lower
extremity tests using complete figures recorded through June 1992. The previously
cited figure of $98 reflected figures recorded at the close of December 1991.
Additional information may be found in Appendix C.

The full text of HCFA comments appears in Appendix B.




                                           8
                                    APPENDIX                        A
Nineteen carriers implemented special policies relating to coverage, documentation,
and/or equipment requirements. Because of concerns about the confidentiality of
carrier policies, we will not identify the carriers.




    F                                             Acceptable symptoms delineated.


    II           B                 Test must produce hard-copy output with a bidirectional
                                                           flow. +

    II           c                         Medical necessity review conducted on all claims.

                D                                  Acceptable diagnoses delineated.


    II
                 E                  Test must produce hard-copy output using bidirectional
                                                    vascular flow/imaging.

    II           F                                 Acceptable diagnoses delineated.

    II           G                 Test must produce hard-copy output signed by physician.

    II           H                    Defines requirements for limited and complete tests.

    II           I                             Documentation    must accompany claims.

    II           J                                 Acceptable diagnoses delineated.

    II           K                   Covered only in cases of planned surgical intervention.

    II           L                                 Acceptable symptoms delineated.

    II           M                   Covered only in cases of planned surgical intervention.

    II           N                   Patient record must contain hard-copy output/imaging.

                 o                  Claims must include a report of clinical findings and test
    II                                                     results. +

                                                   Acceptable symptoms delineated.

                                                   Acceptable symptoms delineated.

                                                   Acceptable diagnoses delineated.

                                             Medical records must contain documentation.

+   Applies specifically to podiatrists.




                                                      A -1
    APPENDIX         B

COMMENTS ON THE DRAFI’ REPORT




             B-1
                                       .-   W




DEPARTMENT OF HEALTH& HUMAN SERVICES


                                                                  Memorandum
%iiiiifiiiiii!@“’‘2“
 Acting Administra or


 Office of Inspector General (OIG) Draft Report: “Medicare Testsof Lower

 Extremity Arteries,” OEI-03-91-O0950


 Bryan B. Mitchell

 Principal Deputy Inspector General



       We reviewed the above-referenced draft report concerning the results of
 OIG’S review of carriers’ use of special policies to combat umecesary and
 inappropriate noninvasive tests of lower extremity arteries.

      We agree with OIG’S recommen&tion that the Health Care Financing
Administration should continue to work with carriers to ensure that sufficient
payment   safeguards are in place for Medicare-covered noninvasive tests of
lower extremity arteries. However, we do not agree with OIG’S projected
savings for the nationwide implementation of the use of prepayment
thresholds prior to the application of other coverage criteria. Our detailed
comments are attached for your consideration.

      Thank you for the opportunity to review and comment on this draft
report. Please advise us if you agree with our position on the report’s
recommendation at your earliest convenience.


Attachment




                                                                                 z
             on Office of Inspector General (OIG) Draft Re~oti
                “Medicare Tests of Lower Extremity Arteries”
                               0EI-03-91-O0950

Recommendation

That HCFA continue to work with carriers to ensure that there are sufficient
safeguards to prevent the unnecessary utilization of lower extremity tests.
These safeguards may include the policies that are currently utilized by some
carxiers.

JICFA Remonse

We agree. The Noninvasive Vascular Testing Work Group, convened by
HCFA and composed of Medicare carrier medical directo~ is working to
develop model local medical review policies for tests of lower -emity
arteries and transcranial dopplers.

Although OIG focused on prepayment review, we believe a variety of policies
and approaches might be appropriate and ought to be considered by OIG
when reviewing this area. They include the following:

     -   The thrust of HCFA utilization review activities is moving to a
         postpayment basis. The effectiveness of prepayment review versus
         targeted postpayment review should be evaluated. Prepayment
         review may not be cost-effective, given the relative costs of manual
         review compared with the payment amount for lower extremity and
         transcranial doppler tests. Reliance on prepayment review without
         other checks also runs the risk of increasing utilization, if physicians
         bemme aware of screen parameters and take advantage of the
         situation.

     -   It may also be beneficial to examine payment for these tests.
         Specifically, it has been suggested that the payment amounts for the
         technical and/or professional components of these tests are too high.
         The rates could be too high given the way that technical components
         were determined or because these tests are in the low range of the
         work scale and physicians responding to the Hanmrd Sumey may
         have overestimated the value of the services at the low end of the
         work scale.
 Page 2

 In addition, OIG found that special utilization policies could produce savings
to the Medicare program, and used as an example tie adoption by four
carriers of a screening threshold of two tests a ya, per physician, per
beneficiary. While nationwide implementation of this policy might achieve
some savings, OIG does not present any rationale for its selection of this
policy (versus more or less stringent policies) as a baseline policy. OIG also
does not address the appropriateness of placing emphasis solely on volume
and COSLwithout regard to a determination of tie appropriate utilization of
the test involved.

Technical Comments

Backmound, page 2- the chart and/or the accompan~g        text should indicate
whether the figures are based on a calendar or fiscal year.

Findinml page 6, second paragraph under “Coverage IJolkks Could Produce
Savings” -the paragraph states that $5 million could be saved annually based
on the experience of the four jurisdictions which used prepayment thresholds
in 1991. This savings estimate assumes that near]y 518,000 tests would not
have been performed if the same prepayment threshold had been in place
nationally and is based on the average cost of about $98 per test.

This conflicts with the chart on page 2 which indicates that the average
allowed amount in 1991 was $89. The problem may be as simple as
transposed digits or it muld be a case of using calendar year figures in one
instance and fiscal year data in the other.

Finally, the estimated $5 million in annual savings appears to be incorrect
based on the data provided. The number of tests (518,000) multiplied by the
average cost per test ($98) produces savings totig    over $50 million. This
figure exceeds the total dollars allowed in 1987 and 1988 for all diagnostic
tests of the lower extremities. Perhaps OIG means to my that over the entire
5-year period of 1987-91, 518,000 tests would have been performed. Assuming
20 percent or roughly 104,000 fewer tests would have been performed in 1991,
at an average savings of $98 per tes~ savings for 1991 would still exceed
$10 million.
                            APPENDIX                  C
                ESTIMATED SAVINGS BASED UPON LIMITING
                 THE NUMBER OF TESTS PER BENEFICIARY

To estimate the potential savings attributable to limiting the number of tests, we
reviewed the 1991 experience of Medicare carriers. Four carriers implemented
prepayment thresholds of two tests a year per physician per beneficiary prior to 1991.
Ushg­ a one percent sample of Medicare Part B payments for 1991 reflecting data
through December 1991, we developed the following distributions.


                            AU Carriers             Four Carriers with Limitations
                                                              (2/Year)
 Number of           Number           Number           Number           Number
 Tests per             of                of              of                 of
 Beneficiary          Tests         Beneficiaries       Tests         Beneficiaries

  1 Test              477,700          477,700            71,800         71,800
 2 Tests              111,800           55,900            12,000          6,000
 3 Tests               59,700           19,900            5,100           1,700
 4+ Tests              50,400           12,600            2,400            600

 Average Number of Tests
 per Beneficiary                          1.24                             1.14

Based upon this data, we determined the carrier limitation of two tests per beneficiary
per physican would produce an 8.1 percent reduction in the number of tests
performed. At the close of June 1992, Part B data indicates that 801,415 tests were
performed for a total allowed amount of approximately $71,232,000. Applying this 8.1
percent reduction, we estimated that approximately $5,769,000 could be saved in the
amount allowed if this two-test limit were applied nationwide.




                                          c-1
Bryan B. Mitchell

Principal Deputy Inspector General


OIG Final Report:    “Medicare Tests of Lower Extremity Arteries,” OEI-03-91-00950


Gerald H. Britten
Acting Assistant Secretary for
 Planning and Evaluation


Attached is a copy of our final inspection report entitled, “Medicare Tests of Lower
Extremity Arteries.”

We found that many Medicare carriers--over      half the carriers responding to our
queries--have instituted special policies to combat unnecessa~ and inappropriate
noninvasive tests of lower extremity arteries. Thirteen carriers implemented
prepayment thresholds to curtail utilization improprieties. The HCFA had previously
warned carriers about abusive billings for these kinds of tests.

We believe the monetary benefits of tighter utilization policies, such as prepayment
thresholds, are evident. Based on the experience of four carriers which have threshold
limits of two tests a year per physician per beneficiary, Medicare would save about
$5.7 million annually.

The HCFA has convened a workgroup to review coverage policies for these tests.
They plan to issue new coverage guidelines. We recommend that HCFA continue to
work with carriers to ensure that there are sufficient safeguards to prevent the
‘mlTR’w33a..jTl+li!iiza+ikm
                        of k.rwm ‘RXt,~TIiit~

                                           ‘1-6’13.   m-es-e   Sa?f”qyfmfi   may   im’iwtie   ‘he

policies that are currently utilized by some carriers.

If you have any questions about this report, please call me or Michael Mangano,
Deputy Inspector General for the Office of Evaluation and Inspections, or have your
staff contact Penny Thompson at (410) 966-3138.

Attachment
Bryan B. Mitchell

Principal Deputy Inspector General


OIG Final Report:   “Medicare Tests of Lower Extremity Arteries,” OEI-03-91-O0950


William Toby, Jr.

Acting Administrator

Health Care Financing Administration



Attached is a copy of our final inspection report entitled, “Medicare Tests of Lower

Extremity Arteries.”


We found that many Medicare carriers--over half the carriers responding to our

queries--have instituted special policies to combat unnecessary and inappropriate

noninvasive tests of lower extremity arteries. Thirteen carriers implemented

prepayment thresholds to curtail utilization improprieties. The HCFA had previously

warned carriers about abusive billings for these kinds of tests.


We believe the monetary benefits of tighter utilization policies, such as prepayment

thresholds, are evident. Based on the experience of four carriers which have threshold

limits of two tests a year per physician per beneficiary, Medicare would save about

$5.7 million annually.


The HCFA has convened a workgroup to review coverage policies for these tests.

They plan to issue new coverage guidelines. We recommend that HCFA continue to

work with carriers to ensure that there are sufficient safeguards to prevent the

unnecessary utilization of lower extremity tests. These safeguards may include the

policies that are currently utilized by some carriers.


The HCFA concurred with our recommendation.            However, they felt other

approaches might also be effective in addition to prepayment thresholds. We did not

examine alternative approaches. However, our recommendation contains sufficient

flexibility to include other utilization review techniques.


If you have any questions about this report, please call me or Michael Mangano,

Deputy Inspector General for the Office of Evaluation and Inspections, or have your

staff contact Penny Thompson at (410) 966-3138.


Attachment

Morning Mail:       Yes —x No

Title: Medicare   Tests of Lower Extremity   Arteries

Reference:   OEI-03-91-O0950       Contact: Penny Thompson (410) 966-3138


We have released a final inspection report entitled, “Medicare Tests of Lower
Extremity Arteries.”

In response to warnings from the Health Care Financing Administration (HCFA)
about abusive billings for noninvasive diagnostic tests of lower extremity arteries, we
found that many Medicare carriers--over half the carriers responding to our queries-­
have instituted special policies to combat unnecessary or inappropriate tests. Thirteen
carriers implemented prepayment thresholds to combat the problem. We believe the
monetary benefits of tighter utilization policies, such as prepayment thresholds, are
evident. Based on the experience of four carriers which have threshold limits of two
tests a year per physician per beneficiary, Medicare would save about $5.7 million
annually. The HCFA has convened a workgroup to review coverage policies for these
tests. They plan to issue new coverage guidelines. We recommend that HCFA
continue to work with carriers to ensure that there are sufficient safeguards to prevent
the unnecessary utilization of lower extremity tests. The HCFA concurred with our
recommendation.
